   AUDIT OF MONITORING COMPLIANCE WITH 8(A)
   BUSINESS DEVELOPMENT REGULATIONS DURING
      8(A) BUSINESS DEVELOPMENT CONTRACT
                  PERFORMANCE

                           AUDIT REPORT NO. 6-15

                                   MARCH 16, 2006




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must
not be released to the public or another agency without permission of the Office of Inspector
General.
                    U.S. SMALL BUSINESS ADMINISTRATION 

                       OFFICE OF INSPECTOR GENERAL 

                           WASHINGTON, D.C. 20416



                                                                   AUDIT REPORT

                                                          Issue Date: March 16, 2006
                                                          Report Number: 6-15




TO:            Anthony Martoccia
               Associate Deputy Administrator for Government
               Contracting and Business Development

               Michael J. Pappas
               Associate Administrator for Field Operations

               /s/ Original Signed
FROM:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

SUBJECT:       Audit Of Monitoring Compliance With 8(a) Business Development
               Regulations During 8(a) Business Development Contract Performance

        The Office of Inspector General (OIG) completed an audit to determine whether
Federal agencies were effectively monitoring compliance with 8(a) Business
Development (BD) regulations when completing 8(a) BD contracts. This audit began
with a complaint about potential violations by an 8(a) BD company when completing
contracts. As we were conducting our review of these violations, we expanded our
review to cover SBA’s and the procuring agencies’ monitoring of compliance with 8(a)
BD regulations during the performance of 8(a) BD contracts. This report presents the
results of our audit.

                                     BACKGROUND

       According to 13 Code of Federal Regulations (CFR) § 124.1, “The purpose of the
8(a) BD program is to assist eligible small disadvantaged business concerns compete in
the American economy through business development.” According to § 19.8 of the
Federal Acquisition Regulation (FAR), “Section 8(a) of the Small Business Act
(15 U.S.C. 637(a)) authorizes the Small Business Administration (SBA) to enter into all
types of contracts with other agencies and let subcontracts for performing those contracts
to firms eligible for [8(a) BD] program participation.” SBA has implemented various
regulations with which 8(a) BD companies must comply when performing these
contracts. These regulations are cited in 13 CFR § 124, as well as FAR § 19, 42, and 52.

        SBA retains the ultimate responsibility for ensuring that 8(a) BD companies
comply with all applicable 8(a) BD program regulations. However, starting in 1998,
SBA delegated the contract execution function to 26 procuring agencies by entering into
partnership agreements/memorandums of understanding with them. The delegated
authority includes ensuring compliance with FAR regulations, which includes 8(a) BD
contract regulations. SBA has the authority to conduct surveillance reviews at the
procuring agencies to ensure, among other things, that procuring activities have followed
the proper procedures in executing 8(a) BD contracts and, if necessary, to provide
suggestions, training or assistance to enable them to improve their procedures.

                  OBJECTIVES, SCOPE AND METHODOLOGY

       Our objectives were to determine whether (1) Federal agencies ensured that
companies complied with 8(a) BD contracting requirements when completing 8(a) BD
contracts; and (2) an 8(a) BD company complied with critical contracting requirements in
completing 8(a) BD contracts.

        We reviewed the Small Business Act, the FAR, the CFR, Standard Operating
Procedure (SOP) 80 05 3 “8(a) Program,” and the latest partnership agreements between
SBA and 26 procuring agencies to determine what responsibilities SBA and the procuring
agencies have in monitoring contractor compliance with 8(a) BD regulations during
contract performance. We also reviewed the FAR and the CFR to determine what SBA
regulations companies must comply with when performing contracts. We interviewed
SBA counsel in order to gain a better understanding of 8(a) BD regulations.

        We interviewed an SBA official as well as one contracting officer and one
technical representative from each of the 23 major procuring agencies (23 of the 26
agencies which have partnership agreements with SBA) to understand each agency’s
internal requirements for monitoring compliance with 8(a) BD regulations. Since most
agencies could not provide official listings of their employees designated for overseeing
8(a) BD contracts, we judgmentally selected representatives from each agency based on
their applicable experience with these contracts.

       Based on a complaint, we audited an 8(a) BD firm to determine whether it could
be viewed as a potential front; i.e., a disadvantaged firm that allows a non-disadvantaged
company to perform its 8(a) BD requirements. We reviewed documents relating to seven
8(a) BD contracts the company received from December 17, 2002 to May 26, 2004. The
seven contracts were the seven largest dollar value 8(a) BD contracts the company
received. [FOIA Ex. 7(A) and 7(D)]. We interviewed the owner and the
former vice president of the company, company subcontractors, the procuring agency’s
contracting officers, and SBA officials.




                                            2

       Audit work was conducted in Washington, D.C. from March 2005 to October
2005. The audit was conducted in accordance with generally accepted Government
Auditing Standards.


                                      AUDIT RESULTS

Finding 1: Neither SBA nor Procuring Agencies Ensured that 8(a) BD Companies
          Complied with Applicable Regulations when Completing 8(a) BD
          Contracts

        While SBA delegated 8(a) BD contract execution authority to 26 procuring
agencies, there's no evidence to support that SBA performed any surveillance reviews to
ensure that these agencies effectively monitored companies for compliance with 8(a) BD
regulations when they completed 8(a) BD contracts. Neither SBA nor procuring agencies
monitored these contracts during contract execution to ensure companies were complying
with these regulations. Procuring agencies did not establish guidelines or procedures to
monitor adherence to these regulations after contract award. As a result, companies
could violate 8(a) BD regulations and government officials would be unaware of the
violations. Our review showed that a company appears to have violated various
significant regulations on various 8(a) BD contracts, and neither the procuring agency nor
SBA was aware of the apparent violations.

        Though SBA delegated 8(a) BD contract execution authority to 26 procuring
agencies, SBA did not ensure that procuring agencies monitored whether companies
complied with 8(a) BD regulations when completing 8(a) BD contracts. It does not
appear that SBA performed any surveillance reviews to determine, in part, whether
procuring agencies were ensuring compliance with these regulations. Further, neither
SBA nor procuring agencies monitored whether the companies complied with these
regulations when completing contracts. None of the 23 procuring agencies that we
contacted had procedures or other guidance that would detect if companies were not
complying with these regulations. SBA does not directly monitor individual 8(a) BD
contracts. While SBA could get involved in these issues if notified by the procuring
agency, this has not occurred.

      As the prime contractor, SBA has ultimate responsibility for ensuring that
companies comply with 8(a) BD regulations. Each participation agreement states that:

       SBA only delegates the authority to sign contracts on its behalf. SBA
       remains the prime contractor on all 8(a) BD contracts . . . and shall retain
       the responsibility for compliance with all applicable provisions of 13
       C.F.R. Part 124 . . . .

        According to each partnership agreement, the procuring agency “shall
retain responsibility for compliance with all applicable provisions of the FAR and
any (agency) regulations . . . .” The FAR includes the 8(a) BD regulations which



                                             3

8(a) BD companies must comply with when completing 8(a) BD contracts. The
partnership agreements do not provide any details on how the procuring agencies
should ensure the 8(a) BD companies are in compliance. Neither the procuring
agencies nor SBA have developed and distributed guidance on what the procuring
agencies should be reviewing and how they should be monitoring.

        According to each partnership agreement, SBA “shall retain the right to perform
on-site contract surveillance reviews . . . .” at the procuring agencies. According to SOP
80 05 3, “the Assistant District Director for 8(a) BD (ADD/8(a)BD) is responsible for
selecting procuring activities to review in locations covered by his or her District Office
(DO).” According to SOP 80 05 3, the Assistant District Director for 8(a) BD performs
the 8(a) review, the District Director signs the final report from this review and the
District Office sends a copy to the Assistant Administrator for the Office of Program
Review within the 8(a) BD program.

        SBA will conduct reviews at the procuring agencies to ensure, among other
things, that procuring activities have followed the proper procedures in executing 8(a)
contracts. The SOP stipulates that SBA has the authority to take back this delegated
authority if the agency routinely abuses the authority of the partnership agreement. The
partnership agreements, however, do not state any specific reasons why SBA may
terminate the agreement and take back the delegated authority.

        The partnership agreements do not specifically detail all the parts of the
FAR dealing with 8(a) BD contract requirements that should be followed.
Contracting Officers and their technical representatives only know that they are
responsible for all FAR stipulations. Notwithstanding this stipulation, none of the
8(a) contracts we reviewed had been monitored. While the participation
agreements state that SBA delegates contract execution to the procuring agencies,
it does not specifically state that the procuring agencies are responsible for
enforcing the 8(a) BD regulations, allowing for possible misinterpretation of
SBA’s meaning. Since SBA believes that it has delegated its authority to monitor
company compliance with all contract and FAR requirements, including
Limitation on Subcontracting, on individual contracts to the procuring agencies, it
does not monitor company compliance on individual contracts.

        It does not appear that SBA conducted any surveillance reviews to determine
whether procuring agencies are effectively monitoring for 8(a) BD regulation
compliance. Neither the 8(a) BD program nor the Office of Field Operations could
identify any completed surveillance reviews. The Deputy Associate Deputy
Administrator for Government Contracting and Business Development could not explain
why these reviews had not been conducted. Officials in the Office of Field Operations
stated that they will take appropriate action to ensure that the reviews are done.

       Since Federal officials were not monitoring 8(a) BD companies’ compliance with
8(a) BD regulations, companies could violate these regulations and government officials
would be unaware of the violations. When companies violate these regulations, it



                                             4

undermines the integrity of the 8(a) BD program and hinders the company from
ultimately being able to compete in the mainstream of the American economy.

       At one of the reviewed 23 procuring agencies, we assessed whether a company
was complying with 8(a) BD regulations when completing 8(a) BD contracts. The
company appeared to have violated significant regulations on all seven contracts we
reviewed. [FOIA Ex. 7(A) and 7(D)]. The 13 contracts had a combined value
of $2 million. Specifically:

   •	 It appears that the company subcontracted out 100 percent of the work on all 13
      contracts. This violates the regulations which require the company to perform at
      least 15 percent of each contract’s labor costs with its own employees.

   •	 On some of these contracts, the company appears to have been unduly dependent
      on the subcontractors as the company could not perform essential portions of the
      contract with its own employees, e.g., electrical work on an electrical contract.
      As such, it would not have provided significant resources and experience to the
      contract. Nor did the company have a joint venture agreement on any of these
      contracts. Companies must have a joint venture agreement approved by SBA
      when working closely together to complete an 8(a) BD contract. SBA cannot
      approve the joint venture agreement if the 8(a) BD company cannot provide
      sufficient evidence that it will contribute significant resources and experience to
      complete its portion of the contract.

   •	 The company appears to have falsified payroll records it submitted to the
      procuring agency in connection with six contracts. The submitted payroll
      included individuals who were also included as employees on sub-contractors
      payrolls, [FOIA Ex. 7(D)].

   •	 The company did not meet the requirements to perform out of state contracts, in
      violation of Section 8(a) (11) of the Small Business Act (15 U.S.C. § 637(a) (11))
      which provides that, to the maximum extent practicable, 8(a) BD construction
      requirements should be awarded within the county or State where the work is to
      be performed.

Since the agency did not monitor this company for compliance with 8(a) BD regulations,
it did not detect any of these possible violations. [FOIA Ex. 7(A)].

         SBA was not aware that the 23 major procuring agencies failed to monitor 8(a)
BD compliance and in fact, that they had no requirements for such monitoring. Due to
the lack of monitoring, there was little likelihood that the procuring agencies would know
if companies were out of compliance so that they could take appropriate action. As a
result, the integrity of the 8(a) BD program may be compromised.




                                            5

Recommendations

We recommend that the Associate Deputy Administrator for Government Contracting
and Business Development:

1A. 	 Revise the partnership agreements so that procuring agencies are specifically
      required to (1) monitor 8(a) BD companies compliance with specified contract and
      FAR requirements, and 8(a) BD regulations, (2) inform contracting officers and
      technical representatives of their responsibilities concerning 8(a) compliance, and
      (3) acknowledge that SBA can take back the delegated authority if it does not
      adequately monitor 8(a) BD company compliance with 8(a) BD regulations.

We recommend that the Associate Administrator for Field Operations:

1B. Ensure that surveillance reviews of procuring agencies are conducted on a regular
    basis. These surveillance reviews should ensure that procuring agencies are
    effectively monitoring for and enforcing compliance with specified 8(a) BD
    regulations on the contracts they administer.


                        SBA MANAGEMENT’S COMMENTS


      The Associate Deputy Administrator for Government Contracting and Business
Development and Associate Administrator for Field Operations stated that they agreed
with the recommendations in the report (See Attachments 1 and 2).


                                      * * * * *

      The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing
Agency procedures for audit follow-up and resolution.

        Please provide us your management decision for each recommendation within 30
days. Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and
target date for completion, or explanation of your disagreement with our
recommendations.

       Should you or your staff have any questions, please contact Robert G. Hultberg,
Director, Business Development Programs Group at (202) 205-[FOIA Ex. 2].


Attachments


                                            6

     ocm'o-a'mcwurca,
NCUWWINMQ~~
         tmwlana nrns 'gn
                                                     W I T




                                                                                  Attachment 2

                           U.S.SMALL BUWN~UAOMIM~HRATION
                                    WPrl H N ~ D.C
                                                 , . PMl6




    FROM:         M W J . P a p p a a ~FOIA         F,   b
                  h d a t e Aduhibu,~           -
                  Offlee of Field Opcl.ra~h a
        TO        Robert G.Sdmb
                  Aasietmt Inspectar C ~meraI
                                         I    lor Auditing
SUBJECT:          Audit OfManitori~12omplianceWi.th 8(a) ED Raguhtio~Duriag &a)
                  BD Cantract PeFfotnlimcc


    Toe OfAw of Field Oparatioas (OEI.1) doee not diiub the        in your dmfl xeport
    "Audit OfMoniiaring CompJiaacce 'F"lth 8(a) BD REguladons Lhuing 8(a) BP Contract
    P&marrce". Wc have wimd t t t~ documant end met with 6IG ataffto diacuerr the
,   mpot. OF0 agrees that aur ofice rlIll bc mqcmaible for taddug such acrion to e n m the
    reviw8 erc conducted an amgnlar tt uais as fl:~wrweodedin The rlraft audit report dated
    FebrPary 23,2006,
    Any questiOna m y be direded to St1phcn Urnbargeti, Field Opmiiobs Speaidd via
    email, ur by phane at (202) 2654     3     F 01   A Ex. 2
                                                             Attachment 3

                        REPORT DISTRIBUTION

Recipient                                                    No. of Copies

Deputy Associate Deputy Administrator for Government Contracting
and Business Development ………………………………………………………...1

Acting Associate Administrator for Business Development .……………………..1

Office of Chief Financial Officer
Attention: Jeffrey Brown …………………………………………………………..1

General Counsel……………………………………………………………………3

U.S. Government Accountability Office …………………………………………..2
